           INSPECTOR GENERAL, DOD, OVERSIGHT
            OF THE ARMY AUDIT AGENCY AUDIT
      OF THE FY 2000 U.S. ARMY CORPS OF ENGINEERS,
      CIVIL WORKS PROGRAM, FINANCIAL STATEMENTS


Report No. D-2001-067               February 28, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronym
AAA Army Audit Agency
                        Office of the Inspector General, DoD
Report No. D-2001-067                                            February 28, 2001
 (Project No. D2001FI-0034)


         Inspector General, DoD, Oversight of the Army Audit
      Agency Audit of the FY 2000 U.S. Army Corps of Engineers,
              Civil Works Program, Financial Statements

                               Executive Summary

Introduction. Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the Federal Financial
Management Act of 1994, October 13, 1994, requires DoD to prepare annual audited
U.S. Army Corps of Engineers, Civil Works Program, financial statements. Office of
Management and Budget Bulletin No. 01-02, “Audit Requirements for Federal
Financial Statements,” dated October 16, 2000, establishes the minimum requirements
for audits of these financial statements. This Bulletin requires the Inspector General,
DoD, to express an opinion on the DoD financial statements and to report on the
adequacy of internal controls and compliance with laws and regulations. We delegated
the audit of the FY 2000 U.S. Army Corps of Engineers, Civil Works Program,
financial statements to the Army Audit Agency. This report discusses the work
performed on the oversight of the Army Audit Agency audit of the FY 2000
U.S. Army Corps of Engineers, Civil Works Program, financial statements.

Objectives. Our objectives were to oversee the Army Audit Agency audit of the
FY 2000 U.S. Army Corps of Engineers, Civil Works Program, financial statements
and to determine the reliability and effectiveness of processes and procedures used to
prepare those statements. This report focuses on the oversight objective. The objective
for determining the consistency and accuracy of financial data compiled by the Corps of
Engineers Finance Center will be addressed in a subsequent AAA report. See
Appendix A for a discussion of the audit process.

Results. The Army Audit Agency report, “FY 2000 Financial Statements: U.S. Army
Corps of Engineers, Civil Works,” February 14, 2001, states that the auditors were
unable to express an opinion on the FY 2000 U.S. Army Corps of Engineers, Civil
Works Program, financial statements. We concur with the Army Audit Agency
disclaimer of opinion; our endorsement of that disclaimer is included in Exhibit 1.
Excerpts of the Army Audit Agency report are included in Exhibit 2 and provide the
reasons for the disclaimer of opinion and identify the material weaknesses and
reportable conditions associated with the internal controls and compliance with laws and
regulations. The complete Army Audit Agency report can be accessed on the Internet
at https://www.aaa.army.mil. The FY 2000 U.S. Army Corps of Engineers, Civil
Works Program financial statements can be accessed on the Internet at
www.dtic.mil/comptroller.
Table of Contents

Executive Summary                                                               i

Appendixes
     A. Audit Process
         Scope and Methodology                                                  1
         Prior Coverage                                                         2
     B. Report Distribution                                                     3

Exhibits
     1. Inspector General, DoD, Endorsement Memorandum
     2. Excerpts from Army Audit Agency Report, FY 2000 Financial Statements:
        U.S. Army Corps of Engineers, Civil Works
Appendix A. Audit Process

Scope and Methodology
    Audit Work Performed. To fulfill our responsibilities under Public
    Law 101-576, the “Chief Financial Officers Act of 1990,” as amended by
    Public Law 103-356, the “Federal Financial Management Act of 1994,” and
    Office of Management and Budget Bulletin No. 01-02, “Audit Requirements for
    Federal Financial Statements,” dated October 16, 2000, we performed oversight
    of the independent audit conducted by the Army Audit Agency (AAA) of the
    FY 2000 U.S. Army Corps of Engineers, Civil Works Program, financial
    statements. We reviewed the AAA audit approach and monitored audit progress
    at key points.

    Reviewing the AAA Audit Approach. We used the “Federal Financial
    Statement Audit Manual,” January 1993, issued by the President’s Council on
    Integrity and Efficiency, and the “Financial Audit Manual,” December 12,
    1997, issued by the General Accounting Office, as the criteria for reviewing the
    AAA audit approach. We reviewed the notification letter, formulation of
    strategy, entity profile, general risk analyses, cycle memoranda, and audit
    programs. In addition, we participated in the AAA conferences on the
    U.S. Army Corps of Engineers, Civil Works Program, financial statements.
    The conferences covered the AAA audit planning and strategy formulation and
    included presentations on issues identified by audit.

            Monitoring Audit Progress. Through the DoD Financial Statement
    Audit Executive Steering Committee, and an integrated line-item oversight
    effort, we provided a forum for a centrally managed exchange of guidance and
    information. We participated in audit working groups on significant topics in
    financial reporting relating to the Corps of Engineers, Civil Works Program.
    For example, we participated in the audit Working Groups for DoD-wide real
    property, eliminating entries, and statistical analyses. We reviewed and
    commented on the AAA audit opinion and internal control report, which
    included discussions of issues on internal controls and compliance with laws and
    regulations.

    In addition to the oversight procedures, we performed other procedures
    necessary to determine the fairness and accuracy of the AAA audit approach and
    conclusions. For example, we co-performed audit steps with AAA and the
    General Accounting Office to determine the adequacy of the internal control
    environment surrounding the Corps of Engineers Financial Management
    System. We also worked closely with AAA in performing its audit work related
    to the Fund Balance With Treasury, and real property.




                                        1
    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goals, subordinate performance
    goal, and performance measures:

           FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain future
           by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-2)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)

           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
           on financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Objectives and Goals. Most major DoD
    functional areas have also established performance improvement reform
    objectives and goals. This report pertains to achievement of the following
    functional area objective and goal.

           Financial Management Area. Objective: Strengthen internal controls.
           Goal: Improve compliance with the Federal Managers’ Financial
           Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.

    Audit Type, Period, and Standards. We performed this financial statement
    audit from October 12, 2000, through February 14, 2001, in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We did not use computer-
    processed data to conduct our oversight of the AAA audit of the FY 2000
    U.S. Army Corps of Engineers, Civil Works Program, financial statements.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in the DoD audit community. Further details are available on
    request.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil.


                                        2
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander and Chief of Engineers, U.S. Army Corps of Engineers

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




                                           3
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          4
Exhibit 1. Inspector General, DoD,
           Endorsement Memorandum




                 5
Exhibit 2. Excerpts from Army Audit
           Agency Report, FY 2000
           Financial Statements: U.S.
           Army Corps of Engineers,
           Civil Works




                   6
